U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Taylor & Sons, Inc. v. United States, No. 21-244
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 13,
2021. The government’s response is now due, after one extension, on October 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 5, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0244
TAYLOR & SON, ET AL.
UNITED STATES, ET AL.

ROGER J. MARZULLA
MARZULLA LAW, LLC
1150 CONNECTICUT AVE., NW
SUITE 1050
WASHINGTON, DC 20036
202-822-6760

